No, 20-1244

 

IN THE
Supreme Court of the Anited States

 

BARBARA TULLY ET AL.,
Petitioners,
Vv.

PAUL OKESON, S. ANTHONY LONG, SUZANNAH WILSON OVERHOLT, ZACHARY E. KLUTZ,
AND CONNIE LAWSON,
Respondents.

 

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on April 8, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioners

on counsel for each party to the above proceedings as follows:

Andrew John Pincus Thomas M. Fisher
Mayer Brown LLP Solicitor General
1999 K St., NW Office of the Indiana Attorney General
Washington, DC 20006 302 W. Washington St., 5th Floor
apincus@mayerbrown.com Indianapolis, IN 46204
(202) 263-3220 Tom.Fisher@atg.in.gov

(317) 232-6201
Counsel of Record for Petitioners Counsel of Record for Respondents
Barbara Tully et al. Paul Okeson, S. Anthony Long,

Suzannah Wilson Overholt, Zachary E.
Klutz, and Connie Lawson

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2021.

 
